LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

December 9, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-604:

ERNEST L. FRANCWAY, JR.
VETERANS AFFAIRS

V.

ROBERT WILKIE, SECRETARY OF

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae
Military-Veterans Advocacy Inc., on December 9, 2019, I caused service to be made
pursuant to Rule 29 on the following counsel for the Petitioner and Respondent:
PETITIONER:
Michael E. Joffre
Sterne, Kessler, Goldstein & Fox P.L.L.C.
1100 New York Avenue, NW
Washington, DC 20005
202-772-8856
mjoffre@sternekessler.com

RESPONDENT:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

This service was effected by depositing three copies of the Brief of Amicus Curiae
Military-Veterans Advocacy Inc. in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 9th day of December 2019.

